Telephone: (913) 551-5429                            www.hudoig.gov                               Fax: (913) 551-5877



                                                          U.S. Department of Housing and Urban Development
                                                          Office of Inspector General
                                                          Office of Audit - Civil Fraud Division
                                                          451 7th Street, SW
                                                          Washington, DC 20410




                                                                                           MEMORANDUM NO.
                                                                                           2012-CF-1809


June 12, 2012


MEMORANDUM FOR: Dane M. Narode, Associate General Counsel, Office of Program
                   Enforcement, CACC




FROM: Kim Randall, Director, Civil Fraud Division, GA

SUBJECT: Final Civil Action: Bank of America Settled Alleged Violations of the False Claims
           Act by Countrywide Home Loans, Inc.


                                                 INTRODUCTION

The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General
(OIG), conducted a review of loans underwritten by Countrywide Home Loans Inc., and its
divisions Countrywide Bank FSB and Countrywide Mortgage Ventures, LLC. OIG’s
participation in the case began due to a qui tam1 filing in the Eastern District of New York and a
request for assistance from the U.S. Attorney’s Office. The objective of the review was to
determine whether Countrywide underwrote Federal Housing Administration (FHA) loans in
accordance with HUD-FHA regulations.

                                       SCOPE AND METHODOLOGY

We selected a statistical sample of 110 loans from a universe of 8,724 FHA-insured loans, which
Countrywide and two of its related entities had closed between January 1, 2003, and December
31, 2009; were 90 days delinquent in the most recent default episode within 24 months of the
loans’ closing or settlement date; and had gone into claim status as of December 12, 2010. We

1
    The False Claims Act allows private persons to file suit for violations of the False Claims Act on behalf of the
    government. A suit filed by an individual on behalf of the government is known as a qui tam action, and the
    person bringing the action is referred to as a “relator.”
performed the following steps:

        Identified Countrywide and its two related entities’ loan originations through HUD’s
        Single Family Data Warehouse;
        Analyzed the FHA loan binders, electronic case binders, and lender files;
        Coordinated with HUD’s Philadelphia Homeownership Center;
        Reviewed HUD Quality Assurance Division reports and Mortgagee Review Board
        actions; and
        Reviewed HUD’s Single Family Asset Management System for HUD loss information
        and HUD’s Single Family Insurance System for preforeclosure sale data.
                                            BACKGROUND

Countrywide is a subsidiary of Bank of America, Charlotte, NC. Countrywide is a former FHA
nonsupervised direct endorsement lender located in Calabasas, CA. Bank of America acquired
Countrywide on January 11, 2008. Countrywide’s FHA approval was voluntarily terminated on
September 2, 2010.

Bank of America is the servicer or holder for many Countrywide loans associated with the three
Countrywide entities noted above. These loans closed between January 1, 2003, and December
31, 2009, which was our statistical sample review period.

                                                RESULTS

We reviewed the 110 statistically selected loans and referred our findings to the U.S. Attorney’s
Office of the Eastern District of New York.

Bank of America and its affiliated entities2 decided to enter into a settlement agreement with the
U.S. Department of Justice. The consent judgment stated that the parties agreed to resolve their
claims without the need for litigation and that Bank of America did not admit the allegations of
the complaint other than those facts deemed necessary to the jurisdiction of the court.

On April 4, 2012, the U.S. District Judge for the District of Columbia approved the consent
judgment,3 which was based in large part on our review of the 110 statistically selected FHA
loans. As a result, Bank of America paid FHA nearly $471 million to settle the Countrywide
portion of the consent judgment.

Bank of America and its affiliated entities also agreed to a deferred settlement payment to FHA
of $850 million. The $850 million is deferred for 3 years from the effective date of the consent
judgment to allow Bank of America to conduct a one-time, nationwide modification program to
be offered to underwater borrowers with economic hardship on first-lien loans. Bank of America

2
  Affiliated entities include Bank of America Corporation; Bank of America, N.A.; BAC Home Loan Servicing, LP;
  Countrywide Home Loans Servicing, LP; Countrywide Home Loans, Inc.; Countrywide Financial Corporation;
  Countrywide Mortgage Ventures, LLC; and Countrywide Bank FSB.
3
  A consent judgment is a judgment issued by a judge based on an agreement between the parties to a lawsuit to
  settle the matter, aimed at ending the litigation with a judgment that is enforceable.


                                                      2
will have no obligation to make the $850 million deferred settlement payment to FHA if it
satisfactorily completes the stipulations of the modification program.

                                   RECOMMENDATION

We recommend that HUD’s Office of General Counsel, Office of Program Enforcement,

1A.    Agree to allow HUD OIG to post the $470,813,750 recovery to HUD’s Audit Resolution
       and Corrective Actions Tracking System.




                                               3
